No.

6J': fT\\
/< 11 !j

L Li 'Cj

j-*s»

Suprems Court, U.S.
FILED

DEC 1 ? 129
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

CMn^opku 'ToraS' a. k.a.

PAvJ/UkvArtiQiJl

— PETITIONER

(Your Name)
vs.

6raj
t\ at. ■f

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

UfliktJ 5 i&hs (curt of Appels -lor Ht fifth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

dhnsbpkr Torres, g. k

. (%n5-h>pkr l^hJi

(Your Name)

Pnsovi Unit j!0 FM ZjZ\
(Address)

fWsiri/fe, TX 713^
(City, State, Zip Code)

(Phone Number)

V\ l:

f

QUESTION(S) PRESENTED

QUESTION #1: Do 13th Amendment slaves, or those under involuntary
servitude, have legal rights when filing pro se §
1983 complaints for serious injuries received from
prison jobs?

QUESTION #2: Can a RULE 59(e) motion be filed to prevent manifest

injustice?

-i-

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[x] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
CHRISTOPHER TORRES, a.k.a. Christopher Muhammad,
Petitioner
v.

BRAD LIVINGSTON, Executive Director of Texas Department of
Criminal Justice;
WILLIAM STEPHENS, Director, of TDCJ-Correctional Institutions
Division;

RELATED CASES
KELVIN SCOTT, Region II Director Of TDCJ-CID;
EDGAR BAKER JR, TDCJ-CID MICHAEL Unit Senior Warden;
TODD FUNAI, MICHAEL Unit's Administrative Segregation
Building Major;
FRANCES SIMS, Ad. Seg. Shift Lieutenant; and
JONATHAN ENDSLEY, Ad. Seg. Correctional Officer,
Respondents.

-ii-

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3j

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

6

CONCLUSION

INDEX TO APPENDICES
APPENDIX A

5th Circuit' s opinion

APPENDIX B

u. s.

APPENDIX C

U.S. Magistrate"s Report

APPENDIX D

5th Circuit's denial on petition for
panel rehearing

APPENDIX E

U.S. District Judge's Memorandum

APPENDIX F

Respondent's brief on appeal

District Court's Final Judgment

APPENDIX G

Torres

§ 1983 complaint

APPENDIX H

U.S. District Court's denial of
RULE 59(e) motion

-iii-

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

ALKEK & WILLIAMS LTD. V. TUCKERBROOK ALTERNATIVE
INVESTMENTS, LP, 695 F.Supp.2d 508 (S.D. Tex. 2010),
affirmed 419 Fed.Appx. 492 (5th Cir. 2010)
E.E.O.C. V. HI LINE ELEC. CO • /
805 F.Supp.2d 298 (N.D. Tex. 2011)
FARMER v. BRENNAN,
511 U.S. 825 (1994)

10
10
8

HALL V. BENNETT,
379 F.3d 462 (7th Cir. 2004)

5, 11

STATUTES AND RULES
TEXAS GOVERNMENT CODE § 497.096
Federal Rules of Civil Procedure,
RULE 59(e)

4

10

OTHER
BLACK'S LAW DICTIONARY
(11th Ed. 2019)

8

-i v-

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[vf For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix id__ to
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[yf is unpublished.
The opinion of the United States district court appears at Appendix &
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[v/f is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
court
appears at Appendix
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
^For cases from federal courts:
The date oon which the United States Court of Appeals decided my case
was____ AuopsY ZHTslozo
[ ] No petition for rehearing was timely filed in my case.
A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: 5effemb&c /8>, 7j>’zx>
and a copy of the
order denying rehearing appears at Appendix
£
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) in
(date) on
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

-2-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitution
8th Amendment
Excessive bail shall not be required, nor
excessive fines imposed nor cruel and unusual
punishments inflicted.
13th Amendment
Neither slavery nor involuntary servitude,
except as punishment for crime whereof the
party shall have been duly convicted, shall
exist within the United States, or any place
subject to their jurisdiction.

Texas statute
TEXAS GOVERNMENT CODE § 497.096
"An employee of TDCJ, ...is not liable for
damages arising from an act or failure to
act in connection with an inmate or offender
programmatic or nonprogrammatic activity,
including work / • • •if the act or failure to
act was not intentional, wilfully or wantonly
negligent, or performed with conscious
indifference or reckless disregard for the
safety of others."

-3-

STATEMENT OF THE CASE
Texas prisoner Petitioner pro se Christopher Torres/

a.k.a.

Christopher Muhammad ("Torres")/ worked as an inmate janitor in
the administrative segregation ("ad. seg.") building of a maximum
security prison. A rookie ad. seg. guard/ Jonathan Endsley ("Endsley")/ ordered Torres to help him feed ad. seg.

inmates housed in

*3
*2
the pod where Endsley was the lone floor officer,

While Torres

helped Endsley feed/ Torres was seriously stabbed in the neck
through the food slot of the cell door of fellow inmate Angel San­
chez, whom Torres just fed, resulting in Torres' current life-long
and irreparable medical problems. Torres seeks a declaratory
judgment and damages against Endsley and six prison supervisors
for failing to protect him from this attack in violation of his
\

8th Amendment protection against cruel and unusual punishment,
.

* \

and in violation of TEXAS GOVERNMENT CODE § 497.096.

.

With these allegations, and other favorable ones either part­
ially or completely ignored by the Magistrate, the district court
held Torres did not show neither Respondent must have known he
faced a substantial risk of serious bodily harm while he helped
Endsley feed ad. seg. inmates, and therefore, dismissed Torres
complaint for failure to state a claim. Relying on HALL v. BENN-

*1

Whom Torres alleged begun working in ad. seg. "a few weeks before" this
incident (Appendix G, Torres' complaint, p. 8 1142).

*2

The pod has eighty-four single-person cells (Appendix G, Torres
laint, p. 3 1114).

*3

There was one officer on the pod's floor, and one officer in the pod's
control picket (Appendix G, Torres' complaint, p. 3 1115).

-4-

comp-

*4

ETT,

Torres filed a RULE 59(e) motion arguing, among other thi-

ngs, that a system-wide prison rule

acknowl’edged by the Respond-

directing ad. seg. guards to "take safety precautions when

ents

serving meals" was evidence Respondents knew Torres faced a sub­
stantial risk of serious bodily harm when helping to feed, and
therefore, the case should be reconsidered to "prevent manifest
injustice. The district court ignored this issue and denied the
motion.
On appeal, Torres argued that the district court erred for
dismissing Torres' § 1983 claims when it overlooked Torres' alle­
gations inferring each Respondent knew Torres faced a substantial
risk of serious bodily harm [by helping to feed], but they each
failed to take reasonable measures to abate it, and, the district
court abused its discretion when it denied the RULE 59(e) motion
after ignoring the said need to "prevent manifest injustice" issue. The 5th Circuit affirmed the dismissal of Torres' complaint,
and affirmed the denial of the RULE 59(e) motion.
On petition for panel rehearing, Torres argued that the 5th
Circuit's opinion overlooked Torres"■allegation inferring all
Respondents knew Torres faced the above said substantial risk but
failed to take reasonable measures to abate it, and he argued that
the Court's opinion ignored the need to "prevent manifest injust­
ice" issue in the district court’ s denial of the RULE 59(e) Mot­
ion. The petition for panel rehearing was denied. This appeal then
was brought to this Court.
*4

_Id., 379 F.3d 462, 465 (7th Cir. 2004)(Prison rule was evidence of actual
knowledge of a serious risk of harm to prisoner).
-5-

QUESTION #1

REASONS FOR GRANTING THE PETITION

This is a case where all parties and the lower courts agree pro
se Petitioner Christopher Torres, a.k.a. Christopher Muhammad
("Torres") was seriously stabbed in the neck through the food slot
•*5
while Torres did his prison job duties, in
of a fellow inmate
this case, while helping a rookie prison guard, Respondent Jona­
than Endsley ("Endsley"), feed inmates housed in the administra­
tive segregation ("ad. seg.") building of a maximum security Texas
prison (Appendix G, Torres' complaint, p. 3 1118 to p. 6 1T28; Appe­
ndix C, U.S. Magistrate's Report, pp. l-3; Appendix E, pp- 1-2,
U.S. District Judge's Memorandum; Appendix F, Respondents' brief
on appeal, pp. 1-2; and, Appendix

a,

5th Circuit's opinion, p. 2).

resulting in Torres' current
*6 Torres filed a
life-long and irreparable medical complications
As a result of this stabbing

pro se § 1983 complaint using words inferring a failure-to-protect
claim against Endsley and the Respondent supervisors. The lower
courts, Torres argues, changed his words to seem as though he
failed to state a claim against the Respondents, and thereby erro­
neously dismissed his complaint.
Torres factually alleged that the manner in which Endsley fed
the ad. seg.

inmates infers Endsley was "subjectively aware" Ends-

*5

The fellow inmate, Angel Sanchez, stabbed Torres in the neck with a
prison-made spear that went between the carotid artery and internal
jugular vein and struck the neck bone (Appendix G, Torres' complaint,
p. 6 1T29; Appendix C, U.S. Magistrate's Report, p. 3).

*6

i.e. having to constantly clear his throat, has a persistent cough, and
gets headaches from the coughs (see Appendix G, Torres' complaint, p. 7
U1T34-36; Appendix C, U.S. Magistrate's Report, p. 3; Appendix E, U.S.
District Judge's Memorandum, p. 3; and,' Appendix A, 5th Circuit's opinion,
p. 2).
-6-

ley could be seriously attacked through a food slot and that/
therefore, Endsley was also "subjectively aware" that Torres faced
that same serious risk being that Endsley had Torres hand the ad.
seg. inmates their meals through the food slots [well within range
of being seriously attacked] and pass things for them. The words
Torres used were:
(a) "...Endsley would simply just open the food slot doors of
every cell one right after another..." (Appendix G/ Torres
complaint/ p. 4 1T19; Appendix C/ U.S. Magistrate's Report/
p. 2) ;
(b) "...then he would wait at the end of that row while I
would have to hand each ad. seg. inmate" [their meals]
"through their opened food slot" [and pass along through
the food slots whatever the inmates requested](Appendix G/
Torres' complaint/ p. 4 1120; Appendix C/ U.S. Magistrate's
Report/ p. 2); and/
(c) thereafter Endsley "would quickly come by and quickly close
every food slot one right after another/" and then go to
the next row and feed the same way (Appendix G, Torres'
complaint/ p. 4 U21).
Torres has always argued that his words on factual allegations
in (c) above are misstated by the lower courts and that this has
led to his claim against Endsley *7
*7

[and the Respondent supervi-

The U.S. District Judge's Memorandum acknowledges the discrepancy between
Torres' allegations and the summary in the U.S. Magistrate's Report in
regards to Torres' words used in (c) above: "—while the Magistrate Judge
had stated that 'the floor officer would walk by and close all the food
slots/' Torres had alleged that the floor officer would 'quickly come by
and quickly close every food slot one right after another/'; but then err-7-

sors ] being erroneously dismissed for failing to state a claim.
The 5th Circuit's opinion omitted Torres' words in (b) above,
and misstated his words in (c) above (sBe Appendix A, 5th Circuit's
opinion, p. 2), and this led to its erroneous ruling that "Torres
does not offer any facts suggesting that Endsley knew of and dis­
regarded a substantial risk to his health and safety" (see Appen­
dix A, 5th Circuit's opinion, p. 3), and thereby further errone­
ously holding that "his claims of failure to train or supervise
against the other defendants, also necessarily fail" (see Appendix
A, 5th Circuit's opinion, p. 4 n. 2).
Being that the lower courts have consistently misstated the
words of Torres' factual allegations against Endsley, as shown
above, one can only reasonably conclude that it was not a result
*8
of inadvertence, but purposeful deception

to keep Torres from

getting the requested relief from the Respondents for their fail­
ure to protect Torres from Sanchez's attack, see FARMER v. BRENNAN, 511 U.S. 825, 847 (1994)(Prison officials are liable under
8th Amendment only if they "knew of inmate(s) facing a subtantial
risk of serious harm and disregarded that risk by failing to take
oneously stated that this discrepancy was "insignificant" (see Appendix
E, U.S. District Judge's Memorandum, p. 6).
This issue was raised on appellate review also, but the 5th Circuit also
erroneously misstated Torres' words by stating, "After the food trays are
distributed, the officer closes the slot" (see Appendix a, 5th Circuit's
opinion, p. 2). Torres pointed out this misstatement on petition for panel
rehearing.,, but it was ignored as the petition was denied (Appendix D, 5th
Circuit! s ruling on rehearing).
*8

"misstatement" is defined as;
"An erroneous assertion, whether as a result of inadvertence or
purposeful deception" (BLACK'';s LAW DICTIONARY 1199 (11th Ed. 2019)
(emphasis added).
-8-

reasonable measures to abate it").
Torres' complaint alleged Endsley fed inmates in ad. seg. in
the manner explained above because most other officers do it that
way

system-wide (see Appendix G, Torres' complaint, p. 4 1119;

Appendix C, U.S. Magistrate's Report, p. 2), and because the Re­
*9
spondent supervisors "train" and/or "tacitly authorize If them to
do so (Appendix G, Torres

complaint, p. 8 1143; Appendix C, U.S.

Magistrate'- s Report, p. 4; Appendix E, U.S. District Judge"
Memorandum, p. 3).
Had Torres' words

in his claim against Endsley

not been

changed by the lower courts, Torres' complaint would not have
been dismissed for failure to state a failure-to-protect claim
against the Respondents.
This Court”s failure to grant this petition will amount to
13th Amendment slaves or those under involuntary servitude, (i.e.
convicts all over this country) having no rights when filing pro
se § 1983 complaints seeking relief from getting serious prison
job injuries; all a lower court has to do is consistently misstate
the words in the convicts! complaint(s) to make it seem he/she has
failed to state a claim and thereby effectively keeping him/her
from getting relief. This Court should grant this petition to is­
sue a holding that outlaws lower courts from misstating pro se

*9

It can be reasonably inferred Endsley was tacitly authorized to feed that
way because, as Torres alleged, "there was no supervisor present" on the
pod when Torres helped Endsley, and no supervisor would be present during
said feeding times "until after the ad. seg. inmates were all fed; only
then would supervisors make their rounds" (Appendix G, Torres' complaint,
p. 5 1MT22-23). Torres also alleged no supervisors were present during ad.
seg. feeding times in "2010" (Appendix G, Torres' complaint, p. 7 U39).
-9-

inmates

word(s) in § 1983 complaints.

QUESTION #2
After the district court dismissed Torres' § 1983 complaint for
supposedly failing to state a claim/ Torres timely filed a RULE
59(e) motion to prevent manifest injustice. Relying on ALKEK &

*10

WILLIAMS LTD. v. TUCKERBROOK ALTERNATIVE INVESTMENTS, LP, and
*11
Torres argued, among other things,
E.E.O.C. v. HI LINE ELEC. CO • f
that a Texas prison system-wide rule for ad. seg. guards [directing
them to take "safety precautions when serving meals" to inmates
housed in ad. seg.], and acknowledged by all parties in this case,
is evidence each Respondent knew of a serious risk to Torres

saf-

ety [while he helped feed ad. seg. inmates] yet they disregarded
that risk when they each failed to take reasonable measures to
ensure he could not be attacked by any ad. seg. inmate, under any
circumstances, while he was assigned to work in ad. seg. Torres
requested for his case to be re-opened and that the court change
its ruling on the merits. The district court remained silent on
this issue (see Appendix H, U.S. District Court's denial on RULE
59(e) motion).
Torres raised this same issue on appeal arguing that the court
can reasonably infer each Respondent knew Torres faced a substan­
tial risk of serious harm when helping to feed ad. seg.

inmates

because each Respondent admits the above said system-wide prison
rule for ad. seg. guards exists (see also Appendix F, Respondents'

*10
*11

Id., 695 F.Supp.2d 508 (S.D. Tex. 2010), reconsideration denied, affirm­
ed 419 Fed.Appx. 492 (5th Cir. 2010)(RULE 59(e) motion may be filed to
prevent manifest injustice)
Id., 805 F.Supp.2d 298 (N.D. Tex. 2011)(same).
-10-

brief on appeal, p. 13, Respondents' acknowledgement of said pri­
son rule). Under HALL v. BENNETT, 379 F.3d at 465 ("Prison rule
was evidence of actual knowledge of serious risk to safety"),
Torres argued said prison system-wide rule was evidence of each
Respondents' actual knowledge of serious risk to ad. seg. guards'
safety when serving meals; by them knowing this risk to ad. seg.
guards, they also knew such risk existed towards ad. seg. janitors
[like Torres] who would be helping ad. seg. guards feed. However,
nowhere in its opinion does the 5th Circuit even make as much as a
whisper on this issue. And it never addresses whether or not such
motions may be filed to prevent manifest injustice.
On petition for panel rehearing, Torres raised this same issue
but the court did not address it (Appendix D, 5th Circuit's denial
on petition for panel rehearing).
The Court should grant this petition to make it clear on whet­
her or not RULE 59(e) motions may be filed to "prevent manifest
injustice".
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,

Christopher Torres, a.k.a. Christopher Muhammad
December 17th, 2020
Date

-11-

